                                              Office of Inspector General
                                             Corporation for National and
                                                      Community Sewice




     Review of the Corporation for National
          and Community Service's
     Purchase and Travel Card Programs

                   OIG Report Number
                       06-42


                                                   Comoraflon for                 a




                             Prepared by:

                   Offke of Inspector General
         Corporation for National and Community Service
             1201 New York Avenue, NW., Suite 830
                     Washington, DC 20525




This report was issued to Corporation management on Angnst 7,2006. Under the laws
and regulations governing audit follow up, the Corporation is to make final management
decisions on the report's findings and recommendations no later than February 7,2007,
and complete its corrective actions by August 7, 2007. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                                               Review of the
                             Corporation for National and Community Service's
                                   Purchase and Travel Card Programs


                                                      Table of Contents



Executive Summary .............................................................................................................1

Background ..........................................................................................................................1

Objectives. Scope. and Methodology ..................................................................................2

Results ..................................................................................................................................3

Corporation Response ....................................................................................... Appendix A
                                cL$xmmiI"iS"iyAL &
                                COMMUNITY
                                SERVICE=



Executive Summary


The Office of Inspector General (OIG) has completed its review of the Corporation for
National and Community Service's (Corporation) Purchase Card and Travel Card
Programs. We identified certain areas of noncompliance with policies and procedures,
and several areas in the internal control structure that warrant corrective action.

The Corporation has implemented an effective process to identify and address delinquent
employee travel and purchase card accounts, but needs to provide up-to-date policies and
procedures to ensure that cardholders are aware of user requirements. The Corporation
also needs to implement a review process for submitting purchase card and travel card
data outside of the organization so that data represents a complete and accurate account
of the travel and purchase card programs. In addition, the Corporation needs to develop a
process for promptly closing travel card accounts for separated employees.

Background

The revised Office of Management and Budget (OMB) Circular A-123, Appendix B,
"Improving the Management of Government Charge Cards Programs", dated August 5,
2005, provides guidance to Federal managers when using government charge cards to
pay for goods and services that support Federal missions. The circular establishes
standard minimum requirements and provides best practices for government charge card
programs that may be supplemented by individual agency policies and procedures.
Agencies are required to provide data and performance metrics reports to OMB annually.
Reports must contain the dates of the most recent and next scheduled independent review
(e.g., Office of the Inspector General) for all agency charge card programs.
The Corporation's Policy Number 503, "Travel Management" (Revision 3) dated
February 15, 2006, provides guidelines for the official use of travel charge cards. New
travel charge cardholders must complete training on the appropriate use of the card
before the Travel Unit can approve their application. Cardholders are required to use the
card for official government travel expenses, pay the charge card bill in full and on a
timely basis. Cardholders are personally responsible for all charges made to their card
and use of the card may be monitored. As of March 2006, there were 444 Corporation
travel cardholders.
Corporation Policy Number 350, "Procuring Supplies and Services" (Revision 1) dated
June 26, 2001, provides guidance on using the purchase card to procure supplies and
services. The policy defines the purchase card as follows:
       ...a government-wide commercial purchase arrangement that allows a
       cardholder to either make micro-purchases (purchases up to $2,500) under
       an established Delegation of Authority, or simplified acquisition purchases
       (purchases over $2,500 up to $100,000) under an established Delegation
       of Authority and Contracting Officer's Warrant instead of submitting a
       procurement request for award of a purchase order.

As of March 2006, there were 79 Corporation purchase cardholders.

Both charge cards are issued by Bank of America, N.A., under the Master Card
International brand name.

The Corporation's travel card and purchase card functions are managed by two separate
employees designated as Agency Program Coordinators (APC). The APC for travel
matters reports to the director of the Office of Administrative Management Services. The
APC for purchase card matters reports to the director of the Office of Procurement
Services.

Objectives, Scope, and Methodology

The objectives of our review were to determine whether:

       internal controls over the Charge Card Program are effective;
       policies and procedures are properly documented; and
       annual reporting requirements to OMB have been met and data reported to OMB
       is accurate and complete.

To achieve these objectives, the OIG:

       reviewed applicable criteria;
       interviewed Corporation staff who process travel and purchase card transactions
       and manage all elements of the programs;
       analyzed controls to ensure that only eligible persons participate in the travel and
       purchase card charge card programs.

We conducted our review between March 1,2006, and May 4,2006, in accordance with
generally accepted government auditing standards. An exit conference was held with
Corporation management on June 9, 2006, to discuss the findings and recommendations
presented in this report. The Corporation's response to the draft report will be included
as Appendix A in the final report.
Results

A. CANCELLATION OF TRAVEL CARD ACCOUNTS

The Corporation's APC for travel cards did not promptly close cardholder accounts.
Bank of America records showed that Corporation travel card accounts were still open
for 42 former Corporation employees as of March 7, 2006. According to the Office of
Human Capital, the 42 employees separated from the Corporation between June 2001 and
February 2006. None of the 42 accounts were found to have an outstanding balance.

The travel APC is the sole employee responsible for Corporation travel matters. The
APC informed us that, due to a number of other travel-related duties, she was unable to
close the accounts. She stated that closing accounts is time consuming because she must
access Bank of America's Electronic Account Government Ledger System (EAGLS) and
delete each account individually. After our review began, the APC attempted to close the
42 accounts, but a subsequent listing of open accounts still contained two separated
employees whose accounts remained open.

The Corporation's Clearance for Final Salary Payment form, highlights a section where
the APC certifies that the separating employee has no further responsibility or
indebtedness relating to the travel card. However, there are no procedures that describe
the specific actions to be taken to close the accounts.

Accounts that are allowed to remain open for separated employees, regardless of whether
the former employees are in possession of the cards, are a vulnerability that could allow
credit card fraud to occur. However, closing or freezing a cardholder's account in a
timely manner, specifically, as soon as employees provide notice that they will be leaving
the Corporation, or in cases where they relocate and will no longer be working in
positions requiring use of the card, will strengthen internal control over this function.
This procedure should aid in reducing the risk of any unauthorized travel card charges.

Recommendation:

We recommend that the Corporation institute procedures to ensure that:

(1)    The APC cross-checks the list of open travel card accounts to the list of separated
       employees to identify accounts belonging to former employees;

(2)    Travel card accounts are closed within a reasonable time period, but at least
       monthly, for employees who have left the Corporation.
Corporation Resvonse:

The Corporation agrees with the recommendations. The travel card APC has closed all
accounts and the separation listing is now up to date. The accounts were not closed due
to a backlog and account system problems experienced by the travel card provider (Bank
of America). If this problem continues to occur in the future, the APC will document
each occurrence and place this information in the Corporation's travel file. The APC also
will document the Standard Operating Procedures to close out travel cards.

Auditor Resvonse:

The procedures described in the Corporation's response are sufficient in addressing the
finding. We believe the APC should contact the travel card provider to determine if the
account system problems can be resolved.

B. COMPLIANCE WITH REVISED OFFICE OF MANAGEMENT AND
   BUDGET CIRCULAR A-123. APPENDIX B

Charge Card Management Plan

OMB Circular A-123, Appendix B, Chapter 2, requires that agencies develop and
maintain written policies and procedures for the appropriate use of charge cards
consistent with the requirements of the Circular. The Circular highlights elements that
are required in each agency management plan. Those elements are as follows:

           1. Identification of key management officials and their responsibilities for
              each charge card program. These officials will include, but are not limited
              to, AgencylOrganization Program Coordinator (AIOPC), Approving
              Officials or other equivalent officials, and other accountableibilling
              officials.
           2. Establishment of a process for formal appointment of cardholders and
              approving officials, where applicable.
           3. Implementation of a process to ensure the credit worthiness of new travel
              and purchase charge card applicants consistent with Appendix B, Chapter
              6, of Circular A-123.
           4. Description of agency training requirements.
           5. Management controls, policies, and practices for ensuring appropriate
              charge card usage and oversight of payment delinquencies, fraud, misuse,
              or abuse.
           6. Establishment of appropriate authorization controls.
           7. Implementation of policies and practices to ensure strategic sourcing
              consistent with Appendix B, Chapter 8, of Circular A-123.
             8. Explanation of how available reports and data are used for monitoring
                 delinquency, misuse, performance metrics, spend analysis1, and other
                 relevant transactions and program management issues.
             9. Documentation and record retention requirements.
             10. Recovery of travel and purchase charge cards and other documentation
                 when employees terminate employment, and if applicable, when an
                 employee moves to a different organization.
             11. Description of how the agency will ensure the ongoing effectiveness of the
                 actions taken pursuant to the OMB guidance, including, but not limited to,
                 evaluating the effectiveness of training, risk management controls, refund
                 management controls, strategic sourcing policies, and tax recovery efforts.



                              Purchase Card Policv and User Guide

Corporation Policy 350 and the Purchase Card User's Guide do not include the following
information that is required by Circular A-123 to be included in the charge card
management plan:

        Implementation of policies and practices to ensure strategic sourcing consistent
        with Appendix B, Chapter 8, of the Circular.
        Explanation of how available reports and data are used for monitoring
        delinquency, misuse, performance metrics, spend analysis, and other relevant
        transactions and program management issues.
        Description of how the agency will ensure the ongoing effectiveness of the
        actions taken pursuant to the OMB guidance, including but not limited to,
        evaluating the effectiveness of training, risk management controls, refund
        management controls, strategic sourcing policies, and tax recovery efforts.

                                          Travel Card Policv

Corporation Policy 503 does not address the following required elements for the charge
card management plan, as prescribed in the Circular A-123 Appendix B guidance.

        Explanation of how available reports and data are used for monitoring
        delinquency, misuse, performance metrics, spend analysis and other relevant
        transactions and program management issues.
        Recovery of travel charge cards and other documentation when employees
        terminate employment, and if applicable, when an employee moves to a different
        organization.



'A spend analysis is an evaluation o f goods and services purchased to detect patterns and identify
opportunities for savings.
       Description of how the agency will ensure the ongoing effectiveness of the
       actions taken pursuant to the OMB guidance, including but not limited to,
       evaluating the effectiveness of training, risk management controls, refund
       management controls, strategic sourcing policies, and tax recovery efforts.

                                 Training Requirements

Circular A-123, Appendix B, Chapter 3, requires that agencies provide training on charge
card management. Both travel card and purchase card AF'Cs receive continuous training
on their respective charge card programs.

                                Purchase Card Training

To determine if purchase cardholders and their respective approving officials had
certified that they had received training, understood the regulations and procedures, and
knew the consequences of inappropriate actions, we judgmentally selected a sample of 25
purchase cardholders from the universe of 79 cardholders. All sampled purchase
cardholders had received training. Three training certificates for approving officials were
not available and we therefore could not determine whether the three individuals had
received the necessary training.

Corporation Policy Number 350, "Procuring Supplies and Services", which includes a
section on purchase card procedures, has not been updated in more than four years. The
purchase card AF'C developed a Purchase Card User's Guide that was updated to
incorporate many of the changes required by Circular A-123, Appendix B. However, as
of the audit date, the guide had not been approved for release to the purchase cardholders.

                                  Travel Card Training

To determine if travel cardholders certified that they had received training, understood
the regulations and procedures, and knew the consequences of inappropriate actions, we
tested a judgmental sample of 149 travel cardholders from the universe of 444
cardholders by reviewing training certificates. We could not verify that 11, or 7 percent,
of the cardholders tested had completed training. We also could not determine that 38, or
25 percent, of those cardholders had received refresher training because their training
certifications had surpassed the two-year requirement for refresher training.

Evidence of travel card training is maintained in a web-based database created and
controlled by the General Services Administration. The travel APC does not maintain
copies of training certificates but uses the database to determine who has received
training and when the employee completed it. The APC can also determine who needs to
receive refresher training that must be completed every two years. However; this
requirement is not documented in the training materials or on the Corporation's travel
web page. The APC presumed that a reminder is sent to each cardholder when it is time
for them to take the refresher course.
Corporation Policy Number 503, "Travel Management", had not been updated in almost
four years prior to its February 2006 update (Revision 3). The 2006 revision does not
include the new requirements of Circular A-123, Appendix B.

Without up-to-date policies and procedures, there is an increased risk for abuse or misuse
of the purchase and travel cards due to cardholders' unawareness of usage requirements.
This could potentially lead to higher delinquency rates.

Recommendation:

We recommend that the Corporation:

(3)    Ensure that the APCs and their supervisors review the revised Circular A-123,
       Appendix B, to adhere to the requirements outlined in the guidance.
(4)    Update Corporation policies so that they are clear and current.


Cornoration Resvonse:

The Corporation agrees with the recommendations. The APCs and their supervisors have
reviewed and understand the guidance in the Circular. The Corporation's procurement
policy is being revised and is in the internal clearance process.

Auditor Resvonse:

The Corporation's response addresses recommendation (3), and part of recommendation
(4). There is no mention of plans to revise the travel card policy and therefore we
reiterate our recommendation that the travel card policy be revised and updated also.


C. INCOMPLETE DATA AND PERFORMANCE METRICS REPORT
   ANDNARRATIVE INFORMATION TO THE OFFICE OF MANAGEMENT
   AND BUDGET

Data and Performance Metrics

Chapter 5 of OMB Circular A-123, Appendix B, requires agencies report to OMB, and
maintain for their own use, the following data, and performance metrics for purchase and
travel cards:

              Number of cards;
              Number of active accounts;
              Percentage of employees that are cardholders;
              Net number of new accounts (new less cancelled);
              Charge card dollars spent and total refunds earned;
              Number of abuse cases reported by the OIG; and
              Number of administrative andlor disciplinary actions taken for card
              misuse (including delinquency).

Purchase Card Only
              Ratio of purchase cardholders to approving officials ;
              Average number of monthly purchase card transactions reviewed per
              approving official;
              Number of purchase cardholders with contracting warrants above $2,500;
              and
              Number of purchase cardholders with transaction limits of $2,500 or more
              who do not hold contracting warrants.

Travel Card Only
             Number and percentage of travel cards with monthly andlor transaction
             limits ($0 - $2,500; $2,501 - $5,000; $5,001 - $7,500; $7,501 and above.);
             Number and percentage of travel cards with ATM withdrawal limits ($0 -
             $2,500; $2,501 - $5,000; $5,001 - $7,500; $7,501 and above); and
             Percentage of travel cardholders that travel less than five times annually.

Circular A-123 requires all agencies, including the Corporation, to report these items on
an annual basis, beginning in the first quarter of Fiscal Year 2006. The first report was
due on January 3 1,2006.

Purchase Card

The information that the purchase card APC submitted for data and performance metrics
on the January 31, 2006, report did not provide the following required information:

       Charge card dollars spent and total refunds earned.



                                      Travel Card

Because the OMB report is a consolidated report prepared by the two APCs, the travel
APC relied on the reporting template provided by the purchase card APC to submit travel
card information. The Corporation purchase card report was submitted January 3 1,2006.
The Corporation's travel data and performance metric report and narrative information
was not submitted until March 8, 2006. The travel APC stated that she was delayed in
sending the information because she was waiting for data from Bank of America. We
note that the EAGLS system contains all of the information needed to prepare the report
for OMB.

The information that was submitted for data and performance metrics did not include the
following required information:
               Total refunds earned;
               Number and percentage of travel cards with monthly and/or transaction
               limits ($0 - $2,500; $2,501 - $5,000; $5,001 - $7,500; $7,501 and above.);
               Number and percentage of travel cards with ATM withdrawal limits ($0 -
               $2,500; $2,501 - $5,000; $5,001 - $7,500; $7,501 and above.); and
               Percentage of travel cardholders that travel less than five times annually.

Narrative Information

All agencies are required to report to OMB, and maintain for their own use, the following
narrative information:

               The date(s) of most recent and next scheduled independent review (e.g.,
               Office of Inspector General) for all agency charge card programs;
               A description of the current process for monitoring delinquencies,
               including which reports the agency reviews and what actions are taken
               when a problem is discovered;
               A description of the steps the agency takes to address protracted
               turnaround time (more than 15 working days) following voucher
               submission for h v e l voucher reimbursement, if applicable;
               A description of the method the agency utilizes to identify and detect
               possible card misuse, including the use of any specialized information
               technology solutions as well as any requests to charge card vendors for
               data reports;
               Future agency plans (within the next 12 months) to enhance charge card
               systems by automating reviews to detect instances of abuse, misuse, and
               kaud; and
               A description of any best practices the agency employs in charge card
               management.

Circular A-123 requires that all agencies, including the Corporation, report these items on
a biannual basis beginning in the first quarter of Fiscal Year 2006.

The narrative section submitted by the travel APC provided the required information and
therefore was considered complete. The purchase card APC provided the required
narrative information. However, in the comments associated with the most recent and
next scheduled independent review, the reference was to internal audits that the APC
conducts. We do not consider the APC audits to be independent, and recommend that, in
the next submission of the narrative information, the APC make reference to any
independent audits or reviews.

As a result of our review of the required OMB submission, we determined that the
Corporation did not submit accurate or timely data and performance metrics reports and
narrative information to OMB for the reporting period ending January 3 1, 2006. This
incomplete information could lead to OMB relying on inaccurate purchase card and
travel card data submitted by the Corporation.
We recommend that the Corporation:

(5)    Implement a review process to ensure that it is reporting accurate and complete
       data to OMB; and

(6)    Ensure that the data and performance metrics report and narrative information are
       submitted by the due date, as required by the Circular.

Cornoration Response:

The Corporation agrees with the recommendations. The Director, OPS will review the
report for completeness and accuracy prior to its submission to OMB. The Director, OPS
will also ensure that both the Purchase and Travel APCs prepare and submit the reports to
OMB in a timely manner.

Auditor Resvonse:

The procedures described in the Corporation's response should be sufficient to prevent
the recurrence of the finding in the future.

NOTEWORTHY ACCOMPLISHMENTS

The purchase card APC has taken a proactive approach by conducting internal reviews of
several purchase cardholders to ensure that they are adhering to the current Corporation
policies and procedures. The reviews have ensured that the purchase cardholders are
following current policies and procedures in using their cards. The purchase card APC
also performs a monthly review of purchase card transactions that are provided by Bank
of America's EAGLS system to identify delinquencies and misuse of the purchase card.

The travel card APC conducts a monthly review of delinquent travel card accounts and
submits a monthly delinquency report to the Corporation's Deputy Chief Financial
Officer. The report identifies the number of cardholders whose accounts are 30 days past
due and 60 or more days past due. It also includes the correspondence that is sent to each
cardholder informing them of their delinquencies, as well as the results of a random
review of five employees and their travel card transactions over the past year.

The chart below shows the decline, over a six-month period (August 2005 to January
2006), in cardholder delinquencies:
          25




                                                                     1
                                                                       30 days
                                                                      4-
          20                                                          -50       days

          15                                                                90 days
          10
                                                                         - 120+days
           5


                 Aug     Sept      Oct      Nov     Dec      Jan



The decline in cardholders who were delinquent also resulted in an approximate 60
percent decline in total outstanding balances owed to Bank of America.




This report is intended for the information and use of the Corporation for National and
Community Service, Office of Inspector General and the U.S. Congress.

This report is a matter of public record and its distribution is not limited.




Carol M. Bates
Assistant Inspector General for Audit
May 4,2006
                            Appendix A


Response of the Corporation for National and Community Sewice
                                 g~~rmmk* &
                                 COMMUNITY
                                 SERVICE-



Date:          August 2,2006

To:            Carol Bates


From:          David Eisner
               Chief Executi

Subject:       Comments on OIG Draft Report, Review of the Corporationfor National
               and Community Service Purchase and Travel Card Programs


Thank you for the opportunity to review and comment on the draft audit report on your
review of the Purchase and Travel Card programs. We are pleased that the report found
that the Corporation has instituted an effective process to identify and address delinquent
employee travel and purchase card accounts. The report also commended the proactive
approach used by the purchase card APC to review and ensure that purchase card holders
are adhering to the current Corporation policies and proced~uesas well as the travel card
APC's procedures for reviewing delinquent accounts. The Corporation would like to
express its appreciation for the effort your staff made in making this a successful and
productive audit.

The report made six recommendations to further improve the oversight and
administration of the Purchase and Travel Card programs. The Corporation agrees with
these recommendations and has begun to implement them. OPS and OAMS have
provided specific responses to each of the six recommendations below, noting that two of
the corrective actions have been completed; therefore, this response serves as notice of
final action for those items.

Attachment

cc:     Jeny Bridges, Chief Financial Officer
        Bill Anderson, Deputy CFO for Financial Management
        Ritchie Vinson, Director, Office of Procurement Services




                         1201 New York .Avcnuc. NL\'   *
                                                     b'ashington, D C X i 2 5
                               ZO2-(lLX-i000 + ~vwu-nati~~nalsi.r~~icc.c~rg              USA-
                                                                                         Freedom Corps
                         Senior Corps   * AlneriCorps * Lcarn and Serve Amcrica          h k e a Dlffcrmce Volunteer
                                                                                 Attachment

                                    Corrective Actions

Recommendation 1 - Institute procedures to ensure that the travel card APC cross-
checks the list of open travel card accounts to the list of separate employees to identify
accounts belonging to former employees.

Corporation response -The Corporation agrees with the recommendation. The travel
card APC has closed all accounts and the separation listing is now up to date. The
accounts were not closed due to a backlog and account system problems experienced by
the travel card provider (Bank of America.) If this problem continues to occur in the
future, the APC will document each occurrence and place this information in the
Corporation's travel file. [Corrective Action Completed]

Recommendation 2 - Institute procedures to ensure that travel card accounts are closed
within a reasonable time period, but at least monthly, for employees who have left the
Corporation.

Corporation response -The Corporation agrees with the recommendation. The APC
will document the SOPSto close out travel cards.

Recommendation 3 - Ensure that the APCs and their supervisors review the revised
Circular A-123, Appendix B, to adhere to the requirements outlined in the guidance.

Corporation response -The Corporation agrees with the recommendation. The APCs
and their supervisors have reviewed and understand the guidance in the Circular.
[Corrective Action Completed]

Recommendation 4 - Update the Corporation's policies and procedures so that they are
clear and current.

Corporation response -The Corporation agrees with the recommendation. The
Corporation's procurement policy is being revised and is in the internal clearance
process.

Recommendation 5 - Implement a review process to ensure that reports to OMB are
accurate and complete.

Corporation response -The Corporation agrees with the recommendation. The
Director, OPS will review the report for completeness and accuracy prior to its
submission to OMB.

Recommendation 6 - Ensure that the data and performance metrics report and narrative
information are submitted by the due date, as required by the Circular.

Corporation response -The Corporation agrees with the recommendation. The
Director, OPS will ensure that both the Purchase and Travel APCs prepare and submit the
reports to OMB in a timely manner.

                                        Page 1 of I
